January 18, 2013

TO:            Patrick O’Rourke
               Chief Financial Officer
               Office of Financial Policy and Controls
               Health Resources and Services Administration


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Independent Attestation Review: Health Resources and Services Administration
               Fiscal Year 2012 Performance Summary Report for National Drug Control
               Activities (A-03-13-00358)


This report provides the results of our attestation review of the Health Resources and Services
Administration (HRSA) Performance Summary Report for National Drug Control Activities for
fiscal year (FY) 2012.

Each National Drug Control Program agency must submit to the Director of the Office of
National Drug Control Policy (ONDCP) an annual evaluation of the progress by the agency with
respect to drug control program goals using the performance measures established for that
agency (21 U.S.C. § 1703(b)(13)). The Federal statute authorizes ONDCP to “monitor
implementation of the National Drug Control Program, including – (A) conducting program and
performance audits and evaluations.” ONDCP may request “assistance from the Inspector
General of the relevant agency in such audits and evaluations” (section 1703(d)(7)).

Section 9 of the ONDCP Circular entitled Drug Control Accounting, dated May 1, 2007, allows
an agency included in the National Drug Control Budget with prior-year drug-related obligations
of less than $50 million to submit an alternative report. ONDCP officials determined that
HRSA’s alternative report would consist of one performance measure, including prior-year
performance targets and results, current-year targets, and procedures used to ensure the quality of
performance data but omitting all other disclosures. HRSA’s management prepared its
alternative report in accordance with ONDCP’s requirements.

As authorized by section 1703(d)(7) of the Federal statute, and in compliance with the Circular,
ONDCP requested that we perform this review. Accordingly, we reviewed the attached HRSA
report entitled “FY 2012 Performance Summary Report for National Drug Control Activities,”
dated November 6, 2012. We conducted our attestation review in accordance with attestation
standards established by the American Institute of Certified Public Accountants and the
Page 2 – Patrick O’Rourke


standards applicable to attestation engagements contained in Government Auditing Standards
issued by the Comptroller General of the United States. A review is substantially less in scope
than an examination, the objective of which is to express an opinion on management’s report;
accordingly, we do not express such an opinion.

HEALTH RESOURCES AND SERVICES ADMINISTRATION
PERFORMANCE SUMMARY REPORT

HRSA’s performance summary report included one measure for National Drug Control Program
activities: the percentage of health center grantees providing substance abuse counseling and
treatment services. HRSA chose to provide the alternative report in lieu of a detailed report and
assertions and provided a statement, as required by the ONDCP Circular, that full compliance
would constitute an unreasonable reporting burden.

We performed review procedures on the performance summary report. In general, we limited
our review procedures to inquiries and analytical procedures appropriate for our attestation
review.

OFFICE OF INSPECTOR GENERAL CONCLUSION

Based on our review, nothing came to our attention that caused us to believe that HRSA’s
performance summary report for FY 2012 was not fairly stated, in all material respects, based on
the ONDCP Circular. Further, nothing came to our attention that caused us to doubt that full
compliance with the Circular would constitute an unreasonable reporting burden.

                                           ********

Although this report is an unrestricted public document, the information it contains is intended
solely for the information and use of Congress, ONDCP, and HRSA and is not intended to be, and
should not be, used by anyone other than these specified parties. If you have any questions or
comments about this report, please do not hesitate to call me, or your staff may contact Kay L.
Daly, Assistant Inspector General for Audit Services, at (202) 619-1157 or through email at
Kay.Daly@oig.hhs.gov. Please refer to report number A-03-13-00358 in all correspondence.


Attachment
ATTACHMENT
                                                                                                ATTACHMENT
                                                                                                Page 1 of 3


(#
 ...   ~ 
     DFP \RT' IF'YI OF HEALTH & ID-:\l-\...,\ SER\lCES              Health Resources and Services .Admi..,istration



'"
 ~-	
       TO. 	                          Director                                                      Rock\ille, Marylnnd 20857
                                      Office of National Drug Control Policy

       THROUGH, 	                     Norris Cochran
                                      Deputy A . tant Secretary, Budget
                                      o            f      and Human Services

       FROM, 	                         P c
                                       Chief Financial Officer
                                       Office of Financial Policy and Controls

       DATE, 	                                 liO'J 0 6 ZOll

       SUBJECT, 	                      Health Resources and Services Administration Pcrfonn ance
                                       Summary Report for Fiscal Year 201 2


       In accordance with the Office of National Drug Control Policy Circular: Drug Control
       Accounting issued May 1,2007, the Health Resources and Services Admin istrati on 's (HR SA)
       Fiscal Year 2012 Performance Summary is enclosed. Since HRSA's obli gations for drug-related
       activities fall below the reporti ng threshold 0[$50 million, we attest that full compliance with the
       ONDCP Circular would constitute an unreasonable reporting burden.
                                                                                      ATTACHMENT
                                                                                      Page 2 of 3
Page 2


         FY2012 Performance Summary Report for National Drug Control Activities

Decision Unit: Bureau for Primary Health Care

Table I: Measure 1

                                CY2011       CY 2011      CY 2012 CY 2012 CY 2013           Data
Performance Measures
                                 Target       Result       Target  Results Target          Source

Percentage of Health
                                                                        Availab le         Unifonn
Center grantees providing
                                   22%          22%          22%         Aug.l ,     22%    Data
substance abuse counseling
                                                                         2013              System
and treatment services.



The Health Center Program Unifonn Data System (UDS) tracks a variety of infonnation,
including patient demographics, services provided, staffing, clinical indicators, utilization rates,
costs, and revenues. UDS data are collected annually fTom grantees and reported at the grantee,
state, and national level s. In the annual UDS report (Table 5 - Staffing and Utilization), each
health center reports on the number of FTEs, patients and patient visits supported by their Health
Center Program grant, separated into clinical service categories, including substance abuse
services. A total of 1,128 health centers reported in the 2011 UDS. In a query of the 201 1 UDS
a total of 249 health centers reported FTEs, patients, andlor patient visits in the substance abuse
category.

Procedures used to ensure quality of perfonnance data - UDS

BPHC requires that grantees submit an annual UDS Report on a standardized (calendar) year.
Because of the importance of accuracy in these data, all reports are subjected to an intensive
editing process. This process, conducted under contract, involves substantial computer editing
plus the use of highly skilled, highly experienced, reviewers who are familiar with health center
operations, and business and IT practices. Reviewers receive annual training.

Editing takes place at three distinct po ints in the overall process:

    I. 	 At grantee, prior to submission. As the grantees enter data into the EHB they are
         infonncd prior to their submission of the data to BPHC, of any of roughly 600 - 700
         errors which might be detected. This process generally results in all of the mathematical
         errors and most of the logical errors being corrected prior to submission.

    2. 	 Upon receipt. Once submitted, the data are subjected to a review to determine that all
         required infonnation has been submitted. Missing tables and, especially, missing sub­
                                                                                   ATTACHMENT
                                                                                   Page 3 of 3
Page 3


         tables relating to individual programs, are identified and grantees are contacted to obtain
         the missing information. These submissions are held until complete.

   3. 	 By reviewers. Once the staff review has detennined that the reports are complete, they
        are forwarded to a reviewer for actual review, and correction (as needed).
